PROOF OF SERVICE BY POSTAL MAIL

I am at least 18 years of age, a party to this action, and I am currently residing in Contra Costa
county.
My current address is: 2100 N. Donovan Way, San Ramon, CA 94582
I served the following document:
Copy of PETITION FOR A WRIT OF REHEARING

to Respondent Ms. Komal Rattan's counsel of record,
Mr. Jason Elter, 2440 Camino Ramon, Suite 265, San Ramon, CA 94583.
The above referenced document was enclosed in an envelope with postage thereon fully paid and
mailed to the above address on May 11, 2021 by regular mail. I declare under the penalty of
perjury under the federal laws of the United States that the foregoing is true and correct.

ABHIJI PRASAD
Date: Ma 11, 2021
Place: San Ramon, CA

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
May 17, 2021

Abhij it Prasad
2100 N. Donovan Way
San Ramon, CA 94582
RE: In Re Abhijit Prasad
Petition for Rehearing
No: 20-7170
Dear Mr. Prasad:
The petition for rehearing in the above-entitled case was postmarked May 11, 2021
and received May 17, 2021 and is herewith returned for failure to comply with Rule 44
of the Rules of this Court. The petition must briefly and distinctly state its grounds and
must be accompanied by a certificate stating that the grounds are limited to intervening
circumstances of substantial or controlling effect or to other substantial grounds not
previously presented.
Please correct and resubmit as soon as possible. Unless the petition is submitted to
this Office in corrected form within 15 days of the date of this letter, the petition will not
be filed. Rule 44.6.

Sincerely,
Scott S. Ha is, Clerk
By:
Susan impong
(202) 479-3039

RECEIVED
Enclosures

JUN 1- 2021
OFFICE OF THE, CLERK
SUPREME COURT, U.S.

